                          U.S. Department of Agriculture

                             Office of Inspector General
                                       Southeast Region




               Audit Report


     Review of Export Licensing Process
for Animal and Plant Health Inspection Service
           Listed Agents or Toxins




                                 Report No. 33601-4-AT
                                            March 2005
                   UNITED STATES DEPARTMENT OF AGRICULTURE
                                    OFFICE OF INSPECTOR GENERAL

                                         Washington D.C. 20250


DATE:          March 31, 2005

REPLY TO
ATTN OF:       33601-4-At

SUBJECT:       Review of Export Licensing Process for Animal and Plant Health
               Inspection Service Listed Agents or Toxins

TO:            W. Ron DeHaven
               Administrator
               Animal and Plant Health Inspection Service

ATTN:          William J. Hudnall
               Deputy Administrator for Marketing Regulatory Program
                 Business Services


This audit was done as part of an interagency review to assess whether the current export licensing
process can help deter the proliferation of chemical and biological commodities. Agencies
participating in the review included the Offices of Inspectors General from the Departments of
Commerce (DOC), Defense, Energy, State, Homeland Security, Health and Human Services, and
Agriculture. In performing the reviews, the participating agencies are examining whether current
licensing and enforcement practices and procedures are consistent with relevant laws and
regulations, and consistent with established national security and foreign policy objectives, such as
those set forth in the President’s National Strategy to Combat Weapons of Mass Destruction, dated
December 2002. The purpose of the reviews also includes an assessment of the effectiveness of
coordination between the various Federal agencies during the export licensing process for these
commodities. We performed this audit in conjunction with our ongoing Evaluation of the
Implementation of the Select Agent or Toxin Regulations by Animal and Plant Health Inspection
Service (APHIS) – Phase II (Audit No. 33601-3-AT).

According to APHIS officials, the U.S. Department of Agriculture (USDA) does not have
regulatory authority for exports. Consequently, APHIS had neither established controls over
exports of animal and plant pathogens, nor coordinated with DOC to establish and implement
export control licensing requirements pertaining to select agents. During our review at 10 selected
entities registered with APHIS, we found that a private research facility exported Highly Pathogenic
Avian Influenza (HPAI) to Hong Kong on two occasions without obtaining the required license
from DOC. An entity official stated that they were not aware of the licensing requirement for
HPAI.
W. Ron DeHaven                                                                                                           Page 2


Even though APHIS has no regulatory authority regarding exports, we concluded that the agency
could help registered entities ensure compliance with all requirements concerning movements,
including exports of dangerous biological agents or toxins by working with DOC to provide the
entities with up-to-date information concerning export licensing requirements. We also
concluded APHIS should notify DOC of any changes to the list of agents or toxins that pose a
severe threat to animals or plants, and work with that agency to help determine whether the
Commerce Control List (CCL)1 should be updated based on APHIS’ changes.

BACKGROUND:

The Public Health Security and Bioterrorism Preparedness and Response Act of 2002, Title II,
Subtitle B,2 was enacted to enhance controls over dangerous biological agents or toxins. The act
requires that the Secretary of Agriculture, through regulations, establish and maintain a list of each
biological agent and each toxin that is determined to have the potential to pose a severe threat to
animal or plant health, or to animal or plant products. It also required that the Secretary establish
procedures to protect animal and plant health, and animal and plant products in the event of a
transfer of biological agents. APHIS was delegated authority to administer the regulations for
USDA.

On December 11, 2002, the President issued the National Strategy to Combat Weapons of Mass
Destruction. The strategy established a comprehensive approach to counter the growing threat from
weapons of mass destruction including, among other things, biological weapons. One aspect of the
strategy is to strengthen export controls to provide for better nonproliferation measures and prevent
terrorists from acquiring such weapons. The United States controls the export of dual-use
commodities for national security, foreign policy, and nonproliferation reasons under the authority
of several different laws. Dual-use commodities are goods and technology determined to have both
civilian and military uses. The primary legislative authority for controlling the export of dual-use
commodities is the Export Administration Act of 1979, as amended.3 Under the act, the DOC’s
Bureau of Industry and Security (BIS) administers the Export Administration Regulations by
developing export control policies, issuing export licenses, and enforcing the laws and regulations
for dual-use exports. The 1979 act4 authorizes BIS to use export controls only after full
consideration of the impact on the economy of the United States and only to the extent necessary to
restrict the export of (1) goods and technology that would make a significant contribution to the
military potential of any other country or combination of countries that would prove detrimental to
the national security of the United States, (2) goods and technology where necessary to further
significantly the foreign policy5 of the United States or to fulfill its declared international


1
  The DOC maintains the CCL to identify items subject to export controls.
2
  Also known as “The Agricultural Bioterrorism Protection Act of 2002.”
3
  The act expired on August 20, 1994, and was reauthorized by Public Law 106-508 (November 13, 2000) until August 20, 2001.
  During the lapse, a national emergency declared under Executive Order 12924 (August 19, 1994), and extended by annual
  Presidential Notices, continued in effect the provisions of the act.
4
  Export Administration Act of 1979, as amended, sec.3; 50 United States Code, app. sec. 2402(2).
5
  According to the act, foreign policy controls expire annually, unless extended by Congress. In order for foreign policy controls
  to be extended, the President must submit a report to Congress explaining why it is necessary for the United States to continue
  to control these items.
W. Ron DeHaven                                                                               Page 3


obligations, and (3) goods where necessary to protect the domestic economy from the excessive
drain of scarce materials and to reduce the serious inflationary impact of foreign demand.

The Australia Group was established in 1985 as a forum of industrialized countries that cooperate in
curbing the proliferation of chemical and biological weapons, by coordinating export controls,
exchanging information, and performing other diplomatic actions. The 38 Australia Group
members have adopted controls on chemical weapons precursors; dual-use chemical manufacturing
facilities and equipment; biological agents used against humans, animals, and plants; dual-use
biological equipment, and related equipment. The United States, using the CCL, regulates all items
controlled by the Australia Group.

OBJECTIVE:

The objectives of our review were to (1) evaluate USDA’s controls to ensure that export licensing
requirements are complied with by entities that are registered to possess and use any of USDA-
defined select agents or toxins or that possess and export any agent on the CCL and (2) evaluate
USDA’s coordination with DOC regarding establishment and implementation of export control
licensing requirements as they pertain to select agents or toxins.

SCOPE AND METHODOLOGY:

We performed this review as part of our audit of APHIS’ Implementation of the Listed Agents or
Toxin Regulations – Phase II (Audit No. 33601-3-AT). We performed work at APHIS
Headquarters in Riverdale, Maryland, and at 10 entities, selected as part of the Phase II audit, that
were registered with APHIS to possess listed agents or toxins. Fieldwork was performed from
November 1, 2004, to February 1, 2005. The audit was performed in accordance with generally
accepted government audit standards.

We interviewed APHIS Headquarters officials to determine (1) what controls, if any, the agency has
over exporting biological agents or toxins and (2) what efforts APHIS had made to coordinate with
DOC when considering which biological agents or toxins to include on the select agent list.

At each of the 10 selected entities, we determined whether the entity (1) has ever exported any of
the biological agents on the CCL; (2) applied for and received an export license from DOC/BIS to
export such biological agents on the CCL (if not, we determined the reason for not obtaining the
license); (3) received guidance concerning biological exports from APHIS, the Centers for Disease
Control and Prevention (CDC) or any other Federal agency; and (4) exported any biological agents
or toxins that were on the APHIS or CDC lists, but were not on the CCL (if so, we determined if the
entities had the required APHIS permits).
W. Ron DeHaven                                                                             Page 4


FINDINGS:

We found that APHIS had not established controls over exports of animal and plant pathogens,
including select agents or toxins on the CCL because the agency did not believe it had regulatory
authority for exports. APHIS regulations require that listed biological agents or toxins may only
be imported or transferred interstate/intrastate by individuals or entities registered to possess,
use, or transfer the particular agent or toxin, and must be authorized by either APHIS or CDC.
The Agricultural Bioterrorism Protection Act of 2002 did not address exports. APHIS officials
said that they referred any exporting license issues to DOC.

Even though the Agricultural Bioterrorism Protection Act of 2002 does not address exports of
dangerous biological agents or toxins posing a severe risk to animals or plants, it does share a
common goal with the National Strategy to Combat Weapons of Mass Destruction. Both the act
and the Strategy are intended to keep dangerous biological materials out of the hands of
terrorists. APHIS regulations control the movement of the dangerous biological agents or toxins
into and through the United States, whereas DOC/BIS controls exports of such agents or toxins.
Researchers must be aware of and comply with all regulations regarding the movement of
dangerous biological material whether within the United States or exports to other countries.
Any violation of either APHIS or DOC/BIS regulations could expose the country to potential
biological attacks by terrorists.

We found that researchers at registered entities were not always familiar with or did not always
follow DOC/BIS exporting requirements. During our site visits, we found that 2 of the
10 entities exported biological agents that were on both the APHIS Select Agent List and the
CCL. One of the two entities exporting agents on both lists had obtained the required DOC
license, the other had not. We also found that a third entity exported an agent on the APHIS list
but not on the CCL at the time of our review. However, the biological agent exported by the
third entity was added to the CCL on December 29, 2004, after our review of the entity. The
following describes the conditions we found at the three entities.

       One of the entities possessed five export licenses for exporting five agents on both the
       CCL and APHIS listed agents or toxins. The entity, a Federal laboratory, had developed
       standard operating procedures (SOP) for shipping biological agents to ensure compliance
       with the various regulations designed to reduce the risk of transmitting diseases to
       humans or animals through accidental exposure and to minimize the threat of the use of
       biological weapons by terrorists. The SOP provided detailed information regarding
       requirements for domestic and international shipments of biological materials, including
       references to the applicable regulations. Included in the SOP was a shipping checklist to
       aid authorized individuals in ensuring that all applicable laws and regulations were
       followed when shipping biological agents or toxins. The checklist included steps to
       determine whether the biological agent or toxin was a select agent, what APHIS or CDC
       permits were required, and whether the pathogen was listed on the CCL and required an
       export certificate.
W. Ron DeHaven                                                                                                      Page 5


         Another entity, a private research facility, exported HPAI to Hong Kong on two
         occasions without obtaining the required license from DOC. An entity official stated that
         they were not aware of the licensing requirement for HPAI. Although the responsible
         official (RO)6 at the entity contacted APHIS personnel concerning export requirements
         prior to the shipments, an apparent miscommunication led him to believe there were no
         licensing requirements for HPAI. In a telephone conversation with an APHIS official on
         May 10, 2004, the RO discussed shipments of vaccine strains outside of the United
         States. The official told the RO that there were no DOC or Department of Transportation
         restrictions for exporting the vaccine. However, the APHIS official was not sure whether
         there were any restrictions regarding the export of APHIS listed agents or toxins. On
         May 11, 2004, the RO spoke with another official concerning exports of the HPAI virus,
         not the vaccine. The second APHIS official stated that APHIS had no restrictions on
         exporting the agent, and that only DOC regulated such exports. Based on the two
         conversations, the RO mistakenly concluded that there were no DOC restrictions on
         exporting the HPAI virus, and so informed the researcher7. The researcher shipped the
         virus to a researcher in Hong Kong on June 4, 2004, and again on August 16, 2004,
         without the required DOC license. HPAI is an extremely infectious and fatal disease for
         chickens. Once established, the disease can spread rapidly from flock to flock. In some
         instances, strains of HPAI viruses can be infectious to people. In 1997 a limited outbreak
         of one strain of HPAI infected 18 people, 6 of whom died.8

         We found that a third entity, a university, had exported Ralstonia solanacearum, race 3,
         biovar 2, to Australia on May 17, 2004. This is a bacterial plant pathogen that infects
         numerous plants, including tomatoes, eggplant, and peppers. It is also a major concern to
         the potato industry because the disease survives well in cold temperatures and renders
         potatoes unmarketable.9 The entity had the required APHIS permits for transportation to
         the port of departure. However, at that time there were no DOC exporting requirements
         for the plant pathogen. On December 29, 2004, the plant pathogen was added to the
         CCL. We contacted the entity on February 1, 2005 to determine whether they were
         aware that the agent had been added to the list. The entity officials were not aware of the
         addition to the CCL, and said that neither APHIS nor DOC had provided any information
         concerning the update to the list. The entity had not exported any of the pathogen since
         December 29, 2004.

We concluded that even though APHIS has no regulatory authority regarding exports, the agency
could help their registered entities ensure compliance with all requirements concerning
movements of dangerous biological agents by working with DOC/BIS to keep the entities up-to-
date on export licensing requirements. This would help accomplish goals of both the
Agricultural Bioterrorism Protection Act of 2002 and the President’s National Strategy to

6
  APHIS regulations (7 Code of Federal Regulations (CFR) 331.5 and 9 CFR 121.6) require that registered entities appoint a RO
  who is responsible for ensuring compliance with the regulations concerning APHIS listed agents or toxins.
7
  The vaccine strain does not require a license, but a license is required for the virus.
8
  Background data taken from APHIS’ Factsheet, entitled “Highly Pathogenic Avian Influenza,” issued March 2004.
9
  Background data taken from APHIS’ Factsheet, entitled “Detection of Ralstonia solanacearum race 3, biovar 2 in the United
  States,” issued March 2003.
W. Ron DeHaven                                                                               Page 6


Combat Weapons of Mass Destruction by ensuring controls are followed to keep dangerous
biological materials out of the hands of terrorists. Therefore, we are recommending that APHIS
work with DOC/BIS to disseminate up-to-date information to entities registered with APHIS.

Of the 54 agents or toxins on APHIS’ list (23 animal pathogens, 21 overlap pathogens, and
10 plant pathogens), 16 are not on the CCL (7 animal pathogens, 1 overlap pathogens, and
8 plant pathogens). Based on discussions with APHIS officials in October 2004, DOC officials
decided to take action to put the remaining 16 animal and plant pathogens onto the CCL.
However, APHIS has not established a protocol to coordinate future additions/deletions to the
CCL with DOC. In addition to the initial list of biological agents or toxins posing a severe risk
to animal or plants, published by APHIS on August 12, 2002, the Agricultural Bioterrorism
Protection Act of 2002 requires that the list be reviewed biennially, or more often if needed, and
revised. Because APHIS has been tasked with periodically reviewing and updating the list of
agents or toxins posing a severe threat to animal or plant health, or animal or plant products, we
are recommending that the agency notify DOC/BIS of any changes to the list and discuss the
potential need to also update the CCL.

RECOMMENDATION 1:

Work with DOC/BIS to disseminate, and keep current, CCL export requirements to registered
entities to help ensure that all controls regarding movement of biological agents or toxins that pose
a severe threat to animals and plants are followed.

AGENCY RESPONSE:

In its March 29, 2005 (see exhibit A), response, the agency stated:

       APHIS will work with the * * * [DOC] and its * * * BIS to disseminate, and keep
       current, the * * * [CCL] export requirements to registered entities, to help ensure
       that all controls regarding movement of biological agents or toxins that pose a
       severe threat to animals and plants are followed. We will investigate adding a
       “ * * * [DOC], BIS” hyperlink to our Select Agent Program website.

OIG POSITION:

In order to reach management decision, please describe the process by which APHIS will
coordinate with DOC to disseminate and keep current the CCL export requirements to registered
entities, and the estimated timeframes for implementing the process.
W. Ron DeHaven                                                                               Page 7


RECOMMENDATION 2:

Notify DOC/BIS of changes to the list of agents or toxins posing a severe risk to animals or plants,
and work with that agency to help determine whether the CCL should be updated based on APHIS
changes.

AGENCY RESPONSE:

In its March 29, 2005 (see exhibit A), response, the agency stated:

       APHIS will notify the * * * [DOC] and BIS of changes to the list of agents or
       toxins posing a severe risk to animals or plants. We will continue to work with
       the * * * [DOC] and BIS to determine whether the * * * [CCL] should be
       updated based on our periodical review and/or changes.

OIG POSITION:

In order to reach management decision, please provide information describing the process (e.g.,
memorandum of understanding or coordinating procedures) that will be established to coordinate
with DOC regarding updates of APHIS’ listed agents or toxins, and the estimated timeframes for
implementing the process.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective action taken or planned and the timeframes for implementation. Please
note that the regulation requires management decision to be reached on the finding and
recommendation within a maximum of 6 months from report issuance, and final action be taken
within 1 year of management decision.

We appreciate the courtesies and cooperation extended to our staff during this review.



/S/
ROBERT W. YOUNG
Assistant Inspector General
  for Audit
EXHIBIT A- AGENCY RESPONSE
Informational copies of this report have been distributed to:

Administrator, APHIS (9)
       ATTN: Agency Liaison Officer
Government Accountability Office (1)
Office of Management and Budget (1)
Office of the Chief Financial Officer (1)
       Director, Planning and Accountability Division
